23

APPENDIX A

Filed
D.C. Superior Court
12/21/2018 16:25PM
Clerk of the Court

SUPERIOR COURT OF THE DISTRICT OF COLUMBIA
CIVIL DIVISION
DOMINIQUE LITTLE

:

Case Number: 2018 CA 6126 B

v.

:

Judge: Florence Y. Pan

OFFICE OF HUMAN RIGHTS
ORDER
This matter comes before the Court upon consideration of defendant District of Columbia
Office of Human Rights’s (“OHR”) Motion to Dismiss (“Def. Mot.”), filed on November 30,
2018; and plaintiffs Opposition to the Motion to Dismiss (“PI. Opp.”), filed on December 3,
2018. The Court has considered the pleadings, the relevant law, and the entire record. For the
following reasons, defendant’s Motion to Dismiss is granted.
PROCEDURAL HISTORY
On August 28, 2018, plaintiff Dominique Little filed a complaint against OHR, alleging
breach of contract. See generally Compl. Plaintiff alleges that:
[The] Office of Human Rights breached a contract that was
designated for a case I had against [District of Columbia Public
Schools (“DCPS”)]. DCPS had a timeframe to the contract to
meet. Upon not meeting the time frame set by the contract, I
contacted Office of Human Rights to request further action as
stated in the contract. The Office of Human Rights did not allow
me that right. Instead, they forced me to abide by directions that
were not in contract agreed upon by both parties.
Compl. at 1.
On November 30, 2018, defendant filed a motion to dismiss and supplemental
memorandum, which provides additional context to the allegations in plaintiffs complaint. See
generally Def. Mem. Defendant contends that this case arises out of a dispute between plaintiff
and DCPS as to whether plaintiffs child was entitled to an achievement award for perfect

Supp. App. 46

V

attendance in the fifth grade, during the 2015-2016 school year. See id. at 2. On January 31,
2017, plaintiff “on behalf of her minor child, filed a written charge of unlawful discrimination at
[OHR].” See id. On October 18, 2017, OHR conducted mediation for plaintiff and DCPS and
the parties entered into a Settlement Agreement, pursuant to which DCPS would issue a medal
and certificate of achievement to plaintiffs child and a $25 gift certificate for the child’s perfect
attendance within 30 days of the date of the Agreement. See id. at 2-3; Ex. A (Settlement
Agreement). In exchange, plaintiff agreed to withdraw her discrimination charge, to forego legal
action against DCPS, and to release DCPS from all claims pertaining to the charge of unlawful
discrimination. See Def. Mem. at 2-3. On December 6, 2017, the medal, certificate, and gift
certificate were delivered to plaintiff. See id. at 3; Ex. B (Proof of Delivery). However, the
delivery occurred 21 days after the 30-day deadline, which was November 17, 2018. See id.
Based on these representations, it appears that plaintiff has filed for breach of contract based on
defendant’s (or DCPS’s) alleged failure to send the items to plaintiff within 30 days. See
generally Compl.
In its motion, defendant argues that plaintiffs complaint should be dismissed because (1)
defendant OHR is a subordinate agency of the District of Columbia and therefore is non sui juris-,
(2) OHR is not a party to the settlement agreement; (3) the complaint fails to state a claim upon
which relief can be granted; and (4) service was improper. See Def. Mot. at 2.
APPLICABLE LEGAL STANDARD
A complaint should be dismissed for failure to state a claim upon which relief can be
granted only if “it appears beyond doubt that the plaintiff can prove no set of facts in support of
his claim which would entitle him to relief.” See Fingerhut v. Children’s Nat jMed. Ctr., 738
A.2d 799, 803 (D.C. 1999); Super. Ct. Civ. R. 12(b)(6). When considering a motion to dismiss a

2

Supp. App. 47

p/v

complaint for failure to state a claim, the Court must “construe the facts on the face of the
complaint in the light most favorable to the non-moving party, and accept as true the allegations
in the complaint.” See Fred Ezra Co. v. Pedas, 682 A.2d 173, 174 (D.C. 1996). A court should
not dismiss a complaint merely because it “doubts that a plaintiff will prevail on a claim.” See
Duncan v. Children’s Natl Med. Ctr., 702 A.2d 207, 210 (D.C. 1997).
A pleading must contain a “short and plain statement of the claim showing that the
pleading is entitled to relief.” See Super. Ct. Civ. R. 8(a); Ashcroft v. Iqbal, 556 U.S. 662, 67778 (2009). Plaintiffs who wish to survive a motion to dismiss under Super. Ct. Civ. R. 12(b)(6)
must provide “enough facts to state a claim to relief that is plausible on its face.” See Bell Atl.
Corp. v. Twombly, 550 U.S. 544, 570 (2007) (plaintiffs must “[nudge] their claims across the line
from conceivable to plausible”); Mazza v. Housecraft LLC, 18 A.3d 786, 791 (D.C. 2011)
(holding that Twombly and Iqbal apply in our jurisdiction because Super. Ct. Civ. R. 8(a) is
identical to its federal counterpart). The “plausibility” pleading standard does not require
“detailed factual allegations” at the initial litigation stage of filing the complaint, but “it demands
more than an unadorned, the-defendant-unlawfully-harmed-me accusation.” Iqbal, 556 U.S. at
678. A claim is plausible on its face “when the plaintiff pleads factual content that allows the
court to draw the reasonable inference that the defendant is liable for the misconduct alleged.”
Id.
ANALYSIS
Subordinate agencies in the District of Columbia, such as the Office of Human Rights,
are non sui juris. See D.C. Code § 1-603.01 (17)(R) (“The term ‘subordinate agency’ means any
agency under the direct administrative control of the Mayor, including, but not limited to, the
following: . . . Office of Human Rights”); see also Nix El v. Williams, 174 F. Supp. 3d 87, 93

3

Supp. App. 48

(D.D.C. 2016) (“The Court also agrees [that] a subordinate agency within the District of
Columbia[] is not a suable entity.” ); see also Arnold v. Moore, 980 F. Supp. 28, 33 (D.D.C.
1997) (“Governmental agencies of the District of Columbia are not suable entities, or [non 5;//]
jto.”);

Braxton v. Nat 7 Capital Hons. Auth., 396 A.2d 215, 216-17 (D C. 1978) (“Cases in this

jurisdiction have consistently found that bodies within the District of Columbia government are
not suable as separate entities [in the absence of statutory authorization].”) (internal citations
omitted). Because OHR is a subordinate agency and cannot be sued, plaintiff should have
named the District of Columbia as the proper party to her lawsuit.1 See Kane v. District of
Columbia, 180 A.3d 1073, 1078 (D.C. 2018) (“A person aggrieved by the action or inaction of a
non sui juris body within the District government must name the District as the defendant in
order to sue for relief”). Defendant argues in its motion to dismiss that ordinarily, such a defect
might be remedied by allowing the plaintiff leave to amend her complaint to name the District of
Columbia. See Def. Mem. at 7-10. But defendant contends that such an amendment would be
futile in this instance, because plaintiffs complaint fails to state a claim. See id.
“[Dismissal under Rule 12(b)(6) is appropriate where the complaint fails to allege the
elements of a legally viable claim.” Chamberlain v. Am. Honda Fin. Corp., 931 A.2d 1018,
1023 (D.C. 2007). The elements of a claim of breach of contract include (1) a valid contract
between the parties; (2) an obligation or duty arising out of the contract; (3) a breach of that duty;
and (4) damages caused by the breach. See Francis v. Rehman, 110 A.3d 615, 620 (D.C. 2015)
(citing Tsintolas Realty Co. v. Mendez, 984 A.2d 181, 187 (D.C. 2009)) (“To prevail on a claim

l

In any case, service on the Office of Human Rights was improper, as neither the Mayor nor the Attorney
General was served with the complaint. See Super. Ct. Civ. R. 4(j)(3)(A) (“The District of Columbia must be served
by delivering (pursuant to Rule 4(c)(2)-(3)) or mailing (pursuant to Rule 4(c)(4)) a copy of the summons, complaint,
Initial Order, any addendum to that order, and any other order directed by the court to the parties at the time of filing
to the Mayor of the District of Columbia (or designee) and the Attorney General of the District of Columbia (or
designee).”).

4

Supp. App. 49

of breach of contract, a party must establish (1) a valid contract between the parties; (2) an
obligation or duty arising out of the contract; (3) a breach of that duty; and (4) damages caused
by breach”). In her complaint, plaintiff fails to allege the existence of a contract between
plaintiff and defendant OHR. See generally Compl.; see also Jack Baker, Inc. v. Office Space
Dev. Corp., 664 A.2d 1236, 1238 (D.C. 1995) (“[T]he party asserting the existence of a contract
has the burden of proof on that issue.”). Indeed, the language of the settlement agreement
explicitly states that the “Settlement Agreement is entered . . . between Dominique Little o/b/o
Minor Child and District of Columbia Public School-CW Harris Elementary School.” See Def.
Mem. at 7; Ex. A (Settlement Agreement).2 OHR is named in the Settlement Agreement only to
establish that the contract becomes an order of the OHR upon execution. See id.; Ex. A
(Settlement Agreement), U 14.J Because plaintiff fails to allege the existence of a contract
between herself and OHR, or the existence of duties or obligations owed by OHR to the plaintiff,
she has not sufficiently pled a claim for breach of contract.
Amending the complaint to name the District of Columbia as defendant would not
remedy the defects in plaintiff’s complaint, because she has not alleged any damages as the result
of the alleged breach of the settlement agreement. See generally Compl. Under the terms of the
agreement, DCPS-CW Harris Elementary School agreed “to send to [plaintiff] a medal and
certificate for her daughter’s attendance record,” “to give the [plaintiff] a gift certificate in the
amount of [t]wenty-five dollars,” and “to send the items to the [plaintiff] within 30 days of
The Court may consider the Settlement Agreement, attached to the motion to dismiss as an exhibit, without
converting the instant motion to a motion for summary judgment, because the allegations of the complaint are based
on the terms of the Settlement Agreement. See Washkoviak v. Student Loan klktg. Ass'n, 900 A.2d 168. 178 (D.C.
2006) (finding that documents referred to in the original complaint and attached to a motion to dismiss were
considered incorporated in the complaint); see also Chamberlain v. Am. Honda Fin. Corp., 931 A.2d 1018, 1025
(D.C. 2007) (finding that it was appropriate, to consider a contract attached to a motion to dismiss without converting
• the motion to one for summary judgment where letters attached to the complaint specifically referred to the
contract).
“This Agreement shall become an Order of the District of Columbia Office of Human Rights upon
execution by the Director of the Office of Human Rights.” Def. Mem.; Ex. A (Settlement Agreement), ^ 14.

5

Supp. App. 50

signing the Agreement at 5133 Fetch Street, SE, Unit 201, Washington, D.C. 20019.” See Def.
Mot: Ex. A (Settlement Agreement), T) 1. Defendant argues that plaintiff received those items,
albeit 21 days late, and therefore, has not suffered any damages. See Def. Mem. at 9; Ex. B
(Proof of Delivery). The contract does not state that time is of the essence, and plaintiff does not
assert any facts to suggest that the 21-day delay is a material breach even in the absence of such
a provision. See Camalier & Buckley, Inc. v. Sandoz & Lamberton, Inc., 667 A.2d 822, 828
(D.C. 1995) (“It has been held that even the specification of a particular time schedule [in a
contract] does not serve to make time of the essence.”) (internal citation omitted). Even if the
delay in delivery could be construed as a breach of contract, plaintiff has not pled any facts to
support her claim for $50,000 in damages for “mental anguish and suffering.” See generally
Compl.; see also PI. Opp.
For all of the foregoing reasons, the motion to dismiss is granted. See Elmore v. Stevens,
824 A.2d 44, 46 (D.C. 2003) (holding that “[a] court’s duty to construe a pro se complaint
liberally does not permit a court to uphold completely inadequate complaints,” and granting
motion to dismiss because “[t]he complaint in this case never alleges that [defendant] did
anything”); see also Twombly, 550 U.S. at 557 (“[N]aked assertion^] . . . without some further
factual enhancement” will not survive dismissal).
Accordingly, it is this 21st day of December 2018, hereby
ORDERED that defendant’s Motion to Dismiss is GRANTED; and it is further

6

Supp. App. 51

ORDERED that all future events scheduled in this matter are vacated and the case is
closed.
SO ORDERED.

...........................................................

:

:

'

■

Judge Florence Y. Pan
Superior Court of the District of Columbia
Copies to:
Dominique Little
5133 Fitch Street, SE#201
Washington, D.C. 20019
Pro Se Plaintiff
Kimberly Johnson, Esq.
Brett Baer, Esq.
Counsel for Defendant

7

Supp. App. 52

\A

SUPERIOR COURT OF THE DISTRICT OF COLUMBIA
CIVIL DIVISION
x
Docket Number: 2018 CAB 006125

DOMINIQUE LITTLE,
Plaintiff,

OhG26APR19hm10: 10

vs.
DISTRICT OF COLUMBIA .
PUBLIC SCHOOLS,
Defendant.

:
x

Friday, January 25, 2019
Washington, D.C.

The above entitled action came on for a hearing
before the Honorable HIRAM PUIG-LUGO, Associate Judge, in
Courtroom Number 317.

APPEARANCES:

On Behalf of the Plaintiff:
PRO SE
\

On Behalf of the Defendant:
CHRISSY GEPHART, Esquire
Washington, D.C.

LETICIA WILLIAMS
Official Court Transcriber

Supp. App. 66

19-1690
Telephone:

879-1757

PROCEEDINGS

1

THE DEPUTY CLERK:

2

Your Honor, calling number

Dominique Little versus District

3

three on the calendar:

4

of Columbia Public Schools, Civil Action 6125 Year 2018.

5

Parties, please step forward, state your names

6

for the record.

7

(Pause.)

8

THE DEPUTY CLERK:

9

names for the record.
MS. GEPHART:

10

Good morning — oh, excuse me.

11

Good afternoon, Your Honor.

12

(phonetic).

13

Columbia.

14
15

Parties, please state your

I'm Chrissy Gephart

I'm here on behalf of the District of

MS. LITTLE:

Good afternoon.

My name is

Dominique Little.

16

THE COURT:

Good afternoon, ma'am.

17

This matter's scheduled for

this matter is

18

here for initial scheduling conference, but the District

19

has filed a motion to dismiss because the named plaintiff

20

is DC Public Schools; is that correct?

21

MS. GEPHART:

22

THE COURT:

23

Correct.
Do you understand what the problem

is, Ms. Little?

24

MS. LITTLE:

25

THE COURT:

No, I do not, Your Honor.
Okay.

This separate individual

2

Supp. App. 67

p>

1

entity of the District of Columbia are not sued

2

separately.

3

file the lawsuit against the District of Columbia

4

government.

5

is against DC Public Schools.

So if you want to file a lawsuit, you have to

And right now, the lawsuit that you've filed

6

MS'. LITTLE:

7

THE COURT:

8

Okay.
So, essentially, you have to refile,

but makes sure that it's against the correct party.
So I would sue DC government?

9

MS. LITTLE:

10

THE COURT:

11

MS. LITTLE:

Okay.

12

THE COURT:

Correct.

13

MS. LITTLE:

14

THE COURT:

15

Yes, ma'am.
No separate agency?

Okay.
And there are certain rules that

apply, in terms of how the District government is served.

16

MS. LITTLE:

17

THE COURT:

Okay.
I don't know if you have the

18

handbook for the self represented, which is to your left,

19

in the corner.

20

don't know it offhand.

21

It might give you that information.

MS. LITTLE:

I didn't see it in there.

I

I did

22

read it for my last case, how to serve the District of

23

Columbia.

24
25

THE COURT:

It should be in there.

If it's not,

then, you know, you're just going to have to do a little

3

Supp. App. 68

,v

P*

1

bit research and find out how that happens.

2

MS. LITTLE:

3

THE COURT:

Okay?

Okay.
Number one.

Number two, and I'm

4

saying this just because you're representing yourself, but

5

when you sue somebody in the complaint you have to be

6

specific about the facts that support your conclusions.

7

And the way you drafted your complaint now, it's just

8

conclusions without providing facts.
So that's another thing that you need to resolve

9
10

for this to move along.

11

MS. LITTLE:

12

THE COURT:

Okay?
Yes.

So the motion to dismiss is granted.

13

It's denied — the case is dismissed without prejudice.

14

That means you can bring it back, but you have to correct

15

those

16

MS. LITTLE:

Mistakes.

17

THE COURT:

18

MS. LITTLE:

19

THE COURT:

20

MS. GEPHART:

21

(Thereupon, the proceedings were concluded.)

— technical problems.

Okay?

Okay.
Thank you very much.
Thank you, Your Honor.

22
23

24
25

4

Supp. App. 69

\

fF.RTTFTPATF OF TRANSCRIBER

1
2
3

I, LETICIA WILLIAMS, an Official Court

4

Transcriber for the Superior Court of the District of

5

Columbia, do hereby certify that in my official capacity I

6

prepared from electronic recordings the proceedings had

7

and testimony adduced in the matter of DOMINIQUE LITTLE

8

vs. DISTRICT OF COLUMBIA PUBLIC SCHOOLS, Docket Number:

9

2018 CAB 006125, in said Court, on the 25th day of

10
11

January, 2019.
I further certify that the foregoing 4 pages

12

were transcribed to the best of my ability from said

13

recordings.

14
15

In witness whereof, I have subscribed my name
this the 18th day of April, 2019.

16
17
18
19
----

A .-P -

~ 'A_ I.__ :>

26
OFFICIAL COURT TRANSCRIBER

21
22
23
24
25

5

Supp. App. 70

24

APPENDIX B

DISTRICT OF COLUMBIA COURT OF APPEALS

IL E

Nos. 19-CV-133 & 19-CV-735
Dominique Little, Appellant

i

AJG202020

i

V.

DISTRICT OF COLUMBIA
COURT OF APPEALS

District of Columbia Public Schools, et al., Appellees.
Appeals from the Superior Court
of the District of Columbia
(CAB-6125-18 & CAB-6126-18)
(Hon. Florence Y. Pan, Trial Judge)
(Hon. Hiram E. Puig-Lugo, Trial Judge)
(Submitted June 24, 2020

Decided August 20, 2020)

Before Easterly and Deahl, Associate Judges, and Steadman, Senior
Judge.
MEMORANDUM OPINION AND JUDGMENT
Per Curiam: In separate complaints, pro se appellant Dominique Little sued
the District of Columbia Office of Human Rights (“OHR”) and the District of
Columbia Public Schools (“DCPS”). The claim against DCPS asserted that DCPS
had unlawfully discriminated against her elementary school daughter in connection
with the failure to award a perfect attendance certificate. The claim against OHR
asserted that OHR had breached a settlement agreement entered into by DCPS-and
appellant regarding the discrimination. In that agreement, DCPS agreed to deliver
a medal, a perfect attendance award, and a twenty-five-dollar gift certificate within
thirty days from the date of the agreement. DCPS failed to meet that timetable by
delivering the items twenty-one days late. i
1 Appellant sought damages of $50,000 for the breach of contract and
$1,000,000 for the discrimination claim.

f'

2

Both suits were improperly brought against the individual District of
Columbia agencies rather than the District itself. See Kane v. District of Columbia,
180 A.3d 1073, 1078 (D.C. 2018) (“A person aggrieved by the action or inaction
of a non sui juris body within the District government must name the District as
the defendant in order to sue for relief.”). The suits were thus subject to dismissal
on that ground alone, although a trial court might have exercised its discretion to
allow an amendment of the complaint. See Keith v. Washington, 401 A.2d 468,
471-72 (D.C. 1979). However, in each case, the trial court correctly found an
additional problem in the statement of the claim, leading to a permissible
dismissal.
In the case against OHR, dismissed in December 2018, the trial court
correctly observed that while the suit was brought as a breach of contract, OHR
was not a party to the settlement contract and did not assume any obligations
thereunder other than that it “may” refer any alleged breach to the D.C. Attorney
General for enforcement. Hence, an amendment to the complaint attempting to
recover damages on the basis of an alleged contract breach by OHR would have
been futile.2
In the case against DCPS, dismissed without prejudice in January 2019 by a
different judge, the District’s motion to dismiss was based only on the improper
naming of DCPS as the defendant and on the failure of the complaint to set forth
time or place pursuant to Super. Ct. Civil R. 9(f). The trial court held a hearing, at
which, with commendable concern for her pro se status, it pointed out to appellant
the need to name the proper party as a defendant and to provide more specificity in
the complaint. Giving appellant the opportunity to continue the litigation by

2 The trial court by way of dictum addressed possible contractual issues that
would be relevant in a complaint based on the liability of DCPS as a party for
breach of the settlement agreement. Having dismissed the suit as being brought
against a non sui juis entity and who bore no liability as a party to the agreement,
the trial court had no occasion to opine on contractual issues relating to DCPS and
they ought to be given a fresh look, should they arise, if appellant chooses to refile
her suit against DCPS. On appeal, we express no views on any issues relating to
such an action if pursued by appellant.

P 2-

3

refiling, it dismissed the complaint without prejudice, a reasonable action under the
circumstances.3
For the foregoing reasons, we affirm the dismissals appealed from.

So ordered.
ENTERED BY DIRECTION OF THE COURT:

J

&. CtvdcOu

JULIO A. CASTILLO
Clerk of the Court

3 In its brief on appeal, the District raises a number of additional ^
considerations in the suit against DCPS, such as possible statute-of-limitations
problems and the fact that appellant agreed in the settlement agreement to refrain
from litigating her discrimination claim. These issues were not presented to the
trial court and did not form the basis for the dismissal without prejudice. Again,
we express no views on any of these possible aspects of the litigation, should
appellant choose to refile.

4

Copies sent to:
Honorable Florence Y. Pan
Honorable Hiram E. Puig-Lugo
Director, Civil Division
QMU

Dominique Little
5133 Fitch Street, SE
Apartment 201
Washington DC 20019
Loren L. AliKhan, Esquire
Solicitor General for the District of Columbia
Jason Lederstein, Esquire

P«4

